MEMORANDUM

Date: November 4, 1999




RE:    closeout-

Background *

       On October 11, 1999, OIG recgi-ye&&etter
                                      .*.         gf complaint alleging the following



             The Station Manager at the




              -
             informed."

       The investigation was initiated based on'possible dtness intimidation, 18 USC
$1512, and violations of the Antarctic Conservation Act (ACA).
                                              c
Investigation                                                                f




   .    The fnvestigation was initiated and coordinated with NSF Office of General
                  NSF.'s Station Manager at              dehutiied as a Special Deputy
           Since the NSF Station Manager's epu ~zation,since one of the allegations was
                   due to OGC's wishes, OIG provided all information to NSF for their
investigation of the allegations.

Conclusions        ;


       The investigation was completed by the NSF Station Manager
                                                                d-ta
no evidence of wrongdoing was found, this case is closed.
